<html>
<title> - [H.A.S.C. No. 111-49]SPACE SYSTEMS ACQUISITION AND THE INDUSTRIAL BASE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-49]

           SPACE SYSTEMS ACQUISITION AND THE INDUSTRIAL BASE

                               __________

                                HEARING

                               BEFORE THE

                     STRATEGIC FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 30, 2009


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 




                  U.S. GOVERNMENT PRINTING OFFICE
51-763                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                     STRATEGIC FORCES SUBCOMMITTEE

                ELLEN O. TAUSCHER, California, Chairman
JOHN SPRATT, South Carolina          MICHAEL TURNER, Ohio
LORETTA SANCHEZ, California          HOWARD P. ``BUCK'' McKEON, 
ROBERT ANDREWS, New Jersey               California
JAMES R. LANGEVIN, Rhode Island      MAC THORNBERRY, Texas
RICK LARSEN, Washington              TRENT FRANKS, Arizona
MARTIN HEINRICH, New Mexico          DOUG LAMBORN, Colorado
                Bob DeGrasse, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                      Zach Steacy, Staff Assistant
















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, April 30, 2009, Space Systems Acquisition and the 
  Industrial Base................................................     1

Appendix:

Thursday, April 30, 2009.........................................    25
                              ----------                              

                        THURSDAY, APRIL 30, 2009
           SPACE SYSTEMS ACQUISITION AND THE INDUSTRIAL BASE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Tauscher, Hon. Ellen O., a Representative from California, 
  Chairman, Strategic Forces Subcommittee........................     1
Turner, Hon. Michael, a Representative from Ohio, Ranking Member, 
  Strategic Forces Subcommittee..................................     2

                               WITNESSES

Blakey, Marion C., President and CEO, Aerospace Industries 
  Association....................................................    12
Chaplain, Cristina T., Director, Acquisition and Sourcing 
  Management, U.S. Government Accountability Office..............     8
Hartman, Joshua T., Director, Space and Intelligence Capabilities 
  Office, Senior Advisor to the Under Secretary of Defense for 
  Acquisition, Technology and Logistics, U.S. Department of 
  Defense........................................................     4

                                APPENDIX

Prepared Statements:

    Blakey, Marion C.............................................    64
    Chaplain, Cristina T.........................................    42
    Hartman, Joshua T............................................    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 
           SPACE SYSTEMS ACQUISITION AND THE INDUSTRIAL BASE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                             Strategic Forces Subcommittee,
                          Washington, DC, Thursday, April 30, 2009.
    The subcommittee met, pursuant to call, at 1:01 p.m., in 
room 2212, Rayburn House Office Building, Hon. Ellen O. 
Tauscher (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELLEN O. TAUSCHER, A REPRESENTATIVE 
    FROM CALIFORNIA, CHAIRMAN, STRATEGIC FORCES SUBCOMMITTEE

    Ms. Tauscher. Good afternoon. The hearing of the Strategic 
Forces Subcommittee will come to order.
    I want to thank you all for attending. This is an important 
hearing that will delve into issues surrounding the acquisition 
of national security space systems.
    During the past decade, most national security space 
programs have experienced significant cost increases and 
schedule delays. Our goal today is to explore why this happens 
and to figure out how to deliver satellite systems in a timely 
and cost-effective manner.
    Specifically, the witnesses have been asked to address the 
following questions: Why can't we control costs, and deliver 
space systems in a timely fashion? Are plans for national 
security space acquisitions properly balanced with the 
industry's capacity to deliver? Finally, what can Congress and 
the executive branch do to address these issues?
    We have three excellent witnesses today. First, we have Mr. 
Josh Hartman, who is Director of the Space and Intelligence 
Capabilities Office, and a Senior Advisor to the Under 
Secretary of Defense for Acquisition, Technology and Logistics 
(USD (AT&L)). Mr. Hartman is well-known to members of the 
committee. He is a former staffer here on the House Armed 
Services Committee (HASC) and on the House Appropriations 
Committee (HAC). Mr. Hartman began his career as an Air Force 
Officer, where his assignments included working on space 
programs in both the Air Force and the National Reconnaissance 
Office (NRO).
    Ms. Cristina T. Chaplain, the Director of Acquisition and 
Sourcing Management at the U.S. Government Accountability 
Office (GAO), will also testify. Ms. Chaplain is responsible 
for GAO assessments of military and civilian space acquisition. 
She has led a variety of Department of Defense (DOD)-wide 
contracting-related and best practices evaluations during her 
18-year career at GAO.
    Finally, my friend, Marion C. Blakey, President and Chief 
Executive Officer (CEO) of the Aerospace Industries Association 
(AIA), will testify. Prior to joining AIA, Ms. Blakey served a 
five-year term as Administrator of the Federal Aviation 
Administration (FAA). Before that, she served as the Chairman 
of the National Transportation Safety Board (NTSB).
    I want to thank each of our distinguished witnesses.
    I also want to recognize Mr. Steve Miller, the Director of 
the Operations Analysis Procurement Planning Division for the 
Cost Analysis Improvement Group, which we call the CAIG, in the 
Office of the Secretary of Defense (OSD). He is with us today 
to answer any questions about the cost analysis report that 
Congress ordered the Secretary to complete.
    Last May, this subcommittee drafted language in the Defense 
Authorization Act directing the Secretary of Defense to task 
his Cost Analysis Improvement Group to analyze the industrial 
base that supports the development and production of space 
systems and provide a report by October 1, 2008. This report, 
which has been provided to each subcommittee member's office, 
will form the basis for our discussions this afternoon.
    The report drew three conclusions. First, today's workforce 
does not match the Nation's needs. The demographic make-up is 
not sustainable, and hiring rates are insufficient to replace 
retirements over the next 10 years.
    Second, the CAIG found that every DOD satellite program had 
at least a 25 percent cost growth or 25 percent schedule slip, 
and almost half of all the programs had more than 100 percent 
growth in both cost and schedule.
    Finally, the CAIG concluded that, ``Today's DOD space 
acquisition strategy is not delivering well-performing 
programs,'' and ``a different approach is required.'' 
Specifically, the CAIG report suggested that once a company 
develops competency in a mission area, the government should 
view them as a partner. The government should ask for 
incremental improvements to space systems, rather than trying 
to drive down cost through competition, which has not saved any 
money.
    As you can see, the CAIG report should give us plenty to 
talk about this afternoon.
    With that, let me turn to my good friend, our ranking 
member, the distinguished gentleman from Ohio, Mr. Turner, for 
any comments he may have.
    Mr. Turner.

 STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM OHIO, 
         RANKING MEMBER, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Turner. Thank you, Madam Chairman. Thank you for your 
leadership and for hosting this subcommittee.
    I also would like to welcome our witnesses, and also 
recognize Josh Hartman for his prior service to this committee.
    Today's hearing comes in the middle of our full committee's 
legislative efforts to address defense acquisition reform. Our 
intent here is to examine, in greater detail, one segment of 
this broader issue--challenges in space acquisition and the 
industrial base.
    Forming the basis of our hearing today is some excellent 
work produced by the Department of Defense's Cost Analysis 
Improvement Group, CAIG, and the Government Accountability 
Office, GAO. The data contained in the CAIG study presents a 
stark picture of national security space. Nearly every single 
defense space acquisition program is over cost and behind 
schedule. Our space budget is the highest to date, yet we 
launch fewer satellites per year than ever before. We have no 
inventory of satellites to provide insurance for an already 
fragile space constellation.
    We appear to be in a precarious cycle. With fewer 
satellites being launched, the requirements for each grow, 
because that satellite must now be many things to many users. 
Satellite complexity grows, schedules expand, and costs 
balloon. High costs and long schedules mean we launch fewer 
satellites, and we are back to where we started. All the while, 
the pool of experienced personnel continues to shrink.
    The principal question becomes: How do we break this cycle? 
How do we maintain a healthy industrial base, and keep smart 
scientists and engineers engaged when there are diminishing 
opportunities to design and build new satellites? Do we need to 
make fundamental changes to our space architecture and 
investment strategy to sustain robust on-orbit constellations 
and greater stability in the industrial base?
    Based on the statements submitted by our witnesses, there 
seems to be a consensus on what should be fixed in space 
acquisition. These recommendations sound like common sense--
realistic cost and schedule estimates, requirements matched to 
resources, mature technology, stable budgets, and an 
experienced workforce.
    My question for our witnesses is then, how do we put these 
sound recommendations into practice? What are the barriers that 
have prevented them from taking root in the Department? 
Furthermore, with an acquisition strategy based on evolution, 
how do we preserve cutting-edge science and technology (S&T) 
and create the right on-ramps to incorporate these technologies 
into acquisition programs?
    As our subcommittee deliberates the fiscal year 2010 budget 
request for space programs in such areas as missile warning, 
protected communications, and imagery intelligence, we will be 
looking to apply these acquisition recommendations and lessons 
learned from the past.
    Lastly, the statement of one of our witnesses notes the 
negative impact that U.S. export control policies have had on 
the health of the space industrial base. Representing several 
of these second- and third-tier suppliers, I hear firsthand 
their concerns. I hope, in a bipartisan way, our committee can 
work together on a pragmatic approach that strikes a balance 
between protecting our unique, advanced space technology and 
capabilities and promoting a viable defense industry that 
competes in the global marketplace.
    Our witnesses bring a diverse cross-section of government 
and industry views on these challenging acquisition and 
industrial base issues. I look forward to hearing their 
testimony.
    Thank you, Madam Chair.
    Ms. Tauscher. Thank you, Mr. Turner.
    We will begin with Mr. Hartman. We have received your 
prepared statement in advance, and it will be introduced in the 
record. We welcome your remarks, Josh.

      STATEMENT OF JOSHUA T. HARTMAN, DIRECTOR, SPACE AND 
 INTELLIGENCE CAPABILITIES OFFICE, SENIOR ADVISOR TO THE UNDER 
SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY AND LOGISTICS, 
                   U.S. DEPARTMENT OF DEFENSE

    Mr. Hartman. Thank you, ma'am.
    Chairwoman Tauscher, Ranking Member Turner, and 
distinguished members of the subcommittee, it is both a 
pleasure and an honor to come back to the committee and, in 
fact, subcommittee where I started my career on the Hill. So 
thank you for the privilege of appearing before you today to 
talk about the state of space acquisition and the space 
industrial base.
    We live in an increasingly complex world. The future 
demands of the world from a national security perspective will 
vary widely, and we will need systems from our acquisition 
process that will enable speed and agility, that are responsive 
and relevant to that changing environment.
    Past performances, as you have noted, in the development of 
our space intelligence systems has not given us great 
confidence we will actually be able to produce these systems in 
the future in a timely or an affordable manner. Today, we 
largely survive on systems that have long lived past their 
design lives; and, for tomorrow, we hope that systems that were 
built with a Cold War mentality will be delivered successfully 
and able to meet threats of the future.
    As noted by the President and increasingly accepted across 
the Department, as recently as the Secretary of Defense's 
public statements on the budget which will soon come over to 
you and the Congress, we in the Department are recognizing and 
do recognize--for many of us, for quite a while--that, in the 
past, we have not been buying the right things and in the right 
manner. However, we have several initiatives under way that 
will address this.
    They are: increasing the program manager empowerment and 
accountability; implementing configuration steering boards to 
manage requirements; the use of defense support teams, joint 
analysis teams, and independent program assessments; 
encouraging prototyping and competitions as well as 
demonstrations; and executing principle-based acquisition set 
upon a group of fundamentals that should be dependent, or part 
of any acquisition program, and not dependent upon an 
individual system.
    So in your invitation, you asked me to specifically address 
the state of acquisition. My assessment of that is that current 
execution of our major systems has improved, but we are not 
there yet. There is still more work to be done.
    As a whole, in the space and intelligence mission area, we 
can point to increasing levels of success and stability. But, 
as Exhibit 1 would show you, the performance of our space 
programs through the electro-optical (EO), the infrared (IR), 
the weather, the precision navigation and timing, as well as 
space situational awareness (SSA) throughout the Air Force, the 
Navy, and the National Reconnaissance Office, as well as tri-
agency efforts have been anything but successful.
    The results of these programs have been a delay in critical 
capabilities to our intelligence customers and to our 
warfighters. We have put fixes in place, but, as I suggested, 
we haven't gone far enough.
    The way that we currently buy and deploy these systems 
have, and will continue to produce critical capability gaps and 
delays in fielding those systems, especially as we move into an 
environment where responsiveness and dynamic tempo will be much 
more of a driver in our operational conflicts.
    So to establish a theme that will cover throughout both my 
statement and, I presume, the questions, I want to quote from 
the executive summary of the OSD CAIG's Space Base Industrial 
Assessment of 2008, and that is: ``The recent focus on 
transformational systems has hampered the execution pace 
required to maintain legacy capabilities. Stability in the 
workforce and the Department's desires must be achieved. The 
Department must re-examine its acquisition strategies to secure 
continued operational performance from these space domains. 
Successful programs are those that have realistic cost and 
schedule expectation, are well understood, have stable budgets, 
experienced and stable staffs, and have a spiral development 
acquisition strategy.''
    In the past, our corporate level Office of the Secretary of 
Defense oversight was inadequately or improperly focused. Our 
space and intelligence organizations operated autonomously, 
largely. There was not a good, strong organization to provide 
this oversight within the Acquisition, Technology and Logistics 
(AT&L) area within OSD.
    But, to address this, OSD has created an organized and 
certified set of acquisition professionals who are space savvy 
within the office of AT&L, called the Space and Intelligence 
Capabilities Office, who will perform this function now.
    So we are putting back in charge of the acquisition of 
these--I am sorry--the oversight of these acquisition programs 
a good pool of skilled acquisition professionals who will know 
right where to go in order to help manage these programs in the 
future.
    Over the last two decades, the skills of our workforce and 
of our government folks have atrophied both in program 
management and in engineering. This can be attributed primarily 
to a training deficiency, leadership shortfalls, and an 
unstable investment in the space industrial base.
    Today, we face a challenge with an aging workforce and low 
recruitment that results in junior and middle management gaps 
for the current state of acquisition, as well as the future. We 
see this in Exhibit Number 2, where you will see the older, 
more experienced engineers will soon be retiring, and we have 
had trouble bringing on younger engineers, putting them in the 
right programs to be able to replace that skill set.
    Our programs will need technically smart people and 
accountable, disciplined leaders who can execute them properly. 
Stable funding in the industrial base, grassroots technical 
education efforts, and changes in the space community business 
model will make this area a more enticing place to work and 
make our recruitment goals easier to achieve.
    Our most daunting problem, though, is that across the space 
and intelligence community we have asked the industrial base to 
do things that are unwise, inefficient, and often, frankly, 
impossible. We have attempted to buy large monolithic systems 
that produce a capability of ``one-size-fits-all,'' meaning a 
single system that satisfies all of its users.
    The philosophy of ``one-size-fits-all'' has driven much of 
our acquisition strategy since 1970; and, using the CAIG data, 
you can see the remarkable change in Exhibit 3, that as we move 
from year to year comparing the annual number of launches to 
the overall investment within the space community, we move from 
a high number of launches at lower cost to a low number of 
launches at higher cost.
    [The information referred to can be found in the Appendix 
on pages 35, 37, and 38.]
    So, as we progressed, we began to rely more on individual 
systems. We piled more and more sensors on those individual 
systems. We raised the complexity of those individual systems. 
And, in the end, we wonder why we don't find the performance 
that we once had.
    This model, I would suggest, is a Cold War relic. It is 
when space systems were needed to satisfy only strategic policy 
decisionmakers, and events unfolded in a fairly static 
timeline. Today's reality is that one size does not actually 
fit all. We need to evaluate alternatives to the large, complex 
systems, use less complex systems, less risky systems when we 
can do so without compromising the missions of our satellites 
that are needed to perform those critical missions. Our needs 
neither can be, nor should they be satisfied from one orbit 
with a single mega-sensor acquisition model.
    There are three remaining reasons for this. First, 
instability in government demand caused by the mega-sensor 
model has evaporated much of the skills in the workforce to 
meet the demands in the future. Additionally, our business 
practices have provided insufficient volume for the sub-tier 
component and technology providers to remain viable or to 
stimulate benefits from innovation or competition.
    Second, different types of users require different amounts 
of data, and at different times, in different geographic 
regions, from different sensors. For example, users in Southern 
Command (SOUTHCOM) might require foliage-penetrating radar or 
electro-optical imagery, while the capability would largely go 
unused in Central Command (CENTCOM) because there aren't many 
trees in the desert. Pacific Command (PACOM) may need open 
ocean surveillance of ship tracking, while European Command 
(EUCOM) may want to understand the pattern of low-level IR 
events. The operational tempos in each of these areas of 
responsibility (AOR) will diverge. We know there is high demand 
in CENTCOM, low demand in SOUTHCOM. Developing a system that 
can satisfy all of these users, all the time is unsustainable, 
if not impossible.
    Third, we must begin to consider the implications of a 
contested environment in space. I think there is no debate that 
protection, dissuasion, and deterrence must be a part of our 
national security space strategy. Deploying architectures with 
constellations of just a few satellites leave the Nation 
incredibly vulnerable and invites our adversaries to target our 
systems. The bang for the buck is just too great for them to 
pass up. Taking out a satellite of a 5-ball constellation 
versus a satellite of a 20-ball constellation completely 
changes the calculus and the risk for attacking our assets in 
space. Survivability must be a consideration in our acquisition 
processes; and our current acquisition model, unfortunately, 
only reinforces this vulnerability.
    The solution is to change our business model that will 
enable the employment of an architecture of distributive 
multiple nodes, layered capabilities to provide the right layer 
of that capability at the right geographic regions, at the 
right time. Architectures should leverage commercial systems. 
Multiple sensors from different sizes of spacecraft and non-
space platforms should be an integrated architecture that 
weighs the benefits of those multiple sensors and those 
multiple media in which we need the capability for our 
warfighters.
    This model will provide for a balanced architecture where a 
foundational capability will provide for medium or large 
systems. At the same time, small and agile, less complex 
systems would be layered to augment in optimized orbits with 
additional capability in high-demand areas, or niched 
capability for special operations, irregular needs, or crisis 
situations.
    As recommended by the GAO and by the CAIG, evolution of 
capability would be a hallmark and a key tenet of this model. 
Systems would purposely be designed to live shorter lives to 
reduce the system complexity and the amount of redundancy 
required. It would synchronize on-orbit life with development 
time. It would increase industrial volume and take advantage of 
rapidly advancing technology.
    This new business model would have multiple benefits in the 
industrial base, the government workforce, and the capability 
of our warfighters. It would shorten cycle times, allowing for 
the quicker fielding of assets. It would allow for larger 
volume purchases and, as I suggested, a greater technology 
refresh rate at a time when technology changes quicker than we 
can launch systems.
    It would produce a more stable workforce due to the 
synchronization of development time and mean mission duration. 
This is really very important, and I want to try to highlight 
why that is important.
    If I build a system that takes me 8 years to build and it 
lasts for 15 years, I immediately have a disconnect between the 
workforce that is rolling off of a program and then should be 
rolling on to the next program. I have got to find something 
for that workforce to do for the next eight years until the 
replenishment of that satellite is needed.
    This new model will reduce overall program risk. It would 
raise confidence in delivery at a time when, frankly, the users 
have little confidence in our ability to deliver. It would 
generate efficiencies that our current system does not produce; 
and, due to the shorter development schedules, it would create 
a continuity of expertise, a sense of ownership of individual 
systems by the workforce, government, and industry, which would 
increase morale and the attractiveness of the space field, 
having a positive effect on recruitment.
    The model would restructure competition and reinvigorate 
innovation through a focus on new payload and subsystem 
developments. The competition model that we use today is to 
compete in the entire system but a bus--a satellite bus is a 
satellite bus. I am oversimplifying a little bit. But the true 
innovation comes at the sensor and payload level, and that is 
how we ought to structure competition.
    Last, this business model would architect survivability of 
space assets by design, making it more difficult and costly for 
an adversary to negate our space capability. Adversaries rarely 
play to each other's strengths, so we shouldn't be surprised 
that future adversaries and future environments don't conform 
to the results of a ``one-size-fits-all'' acquisition in 
architecture.
    We shouldn't presume that our warfighters will be taken 
care of under this model. We shouldn't presume that industry 
can produce under this model. As a result, we should adopt a 
new business model and implement these new architectures for 
our space and intelligence systems.
    I believe all these changes can be appropriately introduced 
to produce the desired results. However, many of the problems I 
have talked about are enmeshed in our culture, and this culture 
has to change. Congress has a role in helping the 
Administration reinforce that cultural change.
    I look forward to working with you and answering your 
questions today.
    Ms. Tauscher. Thank you, Mr. Hartman.
    [The prepared statement of Mr. Hartman can be found in the 
Appendix on page 29.]
    Ms. Tauscher. Ms. Chaplain, the floor is yours.

 STATEMENT OF CRISTINA T. CHAPLAIN, DIRECTOR, ACQUISITION AND 
   SOURCING MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Chaplain. Thank you, Madam Chairwoman and members of 
the subcommittee. Thank you for inviting me today to discuss 
this topic. It comes at a critical juncture for the space 
acquisition community.
    First, it is clear that there are acquisition problems that 
continue to restrain the ability to invest in the future. 
Second, there has been recent cancellations of programs that 
actually represent that future DOD was hoping to get to. Third, 
DOD currently faces culture capability gaps in very critical 
areas: protected communications; weather surveillance; space 
surveillance; navigation, timing, and positioning. And, fourth, 
there are concerns about the capacity and leadership and that 
we are losing our edge in space technology.
    My testimony today is going to focus on the condition of 
space acquisitions, the causes, and the solutions; and I 
believe you will see a lot of commonality between what Josh 
said and I said. I think that is a good thing.
    On the condition of space acquisition, we continue to find 
large cost overruns in space programs, adding up to billions of 
dollars and schedule delays adding up to years. In fact, some 
programs we thought were going to be on a better track last 
year saw some setbacks this year.
    Just a couple of examples. The Advanced Extremely High 
Frequency (AEHF) program ran through some more delays this year 
because it had encountered design and workmanship problems in 
the process of integrating the satellites. Last September, the 
program reported a unit cost about 130 percent above the 
baseline due to both technical problems and a decision to buy 
another satellite.
    The National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) program, which is focused on weather 
and environmental study, continued to experience problems in 
development even after being restructured shortly--just a year 
or so ago. The launch date has slipped from November 2009 to 
January 2013. It is a three-year delay. The original life-cycle 
cost was $6.5 billion. It is now $13.5 billion and likely to go 
higher.
    Why is this happening? I think what we see in our reviews 
is consistent with what the CAIG saw, the Defense Science Board 
has reported, and other committees and study groups have said.
    First, there is a tendency to start programs too early, 
before technologies are fully understood, before requirements 
are settled, and before we even have agreements between the 
community on what the system represents and how we are going to 
use it together.
    Two, space programs are increasingly ambitious. In terms of 
requirements, as Josh mentioned, we are trying to build 
satellites that are more monolithic and serving too many 
communities, but also ambitious in terms of schedule that seems 
to be immovable and creates a lot of pressures on the program.
    Third, there is a lot of optimism in the planning phase in 
terms of cost and schedule. We performed a review for this 
committee a couple of years ago, and in virtually every major 
space program, we found very consistent optimism across a 
number of categories, including things like industrial base 
capability, technologies, requirements, stability to fund the 
programs.
    Fourth, there is a diversity of stakeholders in space that 
you don't see in other weapons programs. So this is an added 
difficulty to space acquisitions that we don't see on the other 
side of weapons. Some programs involve all military services, 
various Pentagon components, various components in the Air 
Force, Strategic Command (STRATCOM), potentially the NRO, 
potentially the National Geospatial-Intelligence Agency (NGA), 
and even outside agencies in cases like the Global Positioning 
System (GPS). There is no one really at the top to negotiate 
all these competing priorities and try and focus on getting 
acquisition and being able to make those top-level decisions.
    We have identified a number of other factors in our review 
that I think have been identified by others as well, one being 
funding shifts within the programs. Ultimately, some programs 
become bill payers for other programs, and that caused the 
delay in the start of the GPS IIIA program, which is now facing 
a lot of schedule pressures.
    Also, there are gaps in the workforce. As you heard from 
Josh and you will hear from others today, when we go to program 
offices ourselves, we see big gaps in the program offices. A 
lot of key technical and business positions aren't being 
filled, and often the people we see who know the most about a 
program are the contractor employees or the Federally Funded 
Research and Development Centers (FFRDC) employees versus the 
government employees. When we did our cost-estimating review 
for this committee, we also found gaps in cost-estimating 
expertise.
    Another issue is short program manager tenure and lack of 
accountability. Another one is the lack of funding for testing 
articles in space. In fact, a lot of people have said over the 
years it seems like there is more an aversion to test and fail 
before an acquisition than to try new things and to see 
failures and wring out the risks before you can begin an 
acquisition. These days, there is not enough funding to be able 
to even test in general.
    There are some factors we have identified that are tied to 
the industrial base. Consolidations in the space industry have 
resulted in less competition. Conversely, there has been a 
desire to compete and go with a lower price, which has resulted 
in going with contractors who don't necessarily have the 
expertise needed to complete that program. In fact, on a few 
programs you hear complaints that we have ``lost the recipe.''
    There has also been the consolidations during the 1990s 
with the emphasis on acquisition reform. When it was 
implemented in the space world, it was really more of a 
relaxing of oversight and quality assurance activities that 
really had an impact on the things like quality of parts and 
systems engineering that has had a big impact on space 
programs. That happened within government and within industry.
    Also, there is a gap of technical workforce in the 
commercial sector that we have seen reported by a number of 
study groups. So it is not just happening in government, it is 
happening in the commercial sector.
    I would like to note, though, that we have visited a number 
of commercial satellite suppliers in a recent review, and they 
each told us they feel like they do have the workforce they 
need to do their work.
    When it comes to a solution set, I really believe there is 
broad agreement between what we are saying, what the CAIG is 
saying in its report, what the Allard Commission said in its 
recent study for these committees, and what has been said by 
many others over time, and also the solutions, I believe, is 
what is being advocated for the entire weapons portfolio. And 
they are very simple tenets that were suggested by the ranking 
minority member.
    First, more achievable requirements; second, more up-front 
understanding of technology; third, strengthened leadership; 
fourth, stability in funding--and that means setting priorities 
to which systems receive the highest and so forth. Next, is 
strength in workforce. And also that comes with giving good 
incentives to program managers and ensuring they stay long 
enough so they can be held accountable for the decisions that 
they make.
    Next are the types of solutions that Josh has been talking 
about, kind of looking at solutions that focus on smaller kinds 
of satellites, more achievable systems, and programs that stay 
in production for long periods of time, that constantly are 
renewing themselves so you are constantly renewing and 
strengthening the industrial base.
    The CAIG also noted in its study a need for stability in 
contractors with specialized expertise. We agree that programs 
that have switched contractors who don't necessarily have the 
expertise to do a program has caused problems. But when you 
talk about an approach that is going to stick with one 
contractor for a certain kind of capability over multiple 
programs, there are some cautions that need to be kept in mind.
    One is you still do need competition at some level. Josh 
suggested that would be at the payload or sensor level, and we 
would agree with that at GAO.
    Second, you still want a process where you are going to 
encourage new entrants into the acquisition process. They are 
the ones that give you the opportunity to innovate and get 
better value. And there are some programs in defense--and the 
National Aeronautics and Space Administration (NASA) focused on 
getting new entrants. We just need to maintain that focus and 
make sure it is well resourced.
    Third, under any conditions, you need strong oversight on 
the government's part. It is more important than ever if you 
are sticking with one contractor, program after program, that 
it is difficult to do when you have deletions in program 
management capability and oversight on the government side.
    Last is just to keep in mind that stability in contractors 
is not the only fix that we need for space. There are other 
issues here that really need to be addressed, one being making 
sure technologies are well understood before a program begins; 
making sure requirements are understood and remain stable; 
making sure funding remains stable; making sure tenure in 
program managers is at a length that ensures accountability; 
and making sure you have the leadership over all space 
programs.
    What is being done today, there are a lot of good actions 
being undertaken. At the DOD-wide level, there are actions 
designed to strengthen program managers and to make them more 
accountable. There are actions designed to improve the 
investment process so that you can focus better on priorities.
    At the Air Force level, there are a lot of actions going on 
in the area of cost estimating. There is emphasis on a back-to-
basics policy that focuses on evolutionary development, not 
biting off more than you can chew.
    On individual programs like the GPS IIIA program, there are 
a lot of good decisions being made upfront to better position 
those programs for success.
    At Congress, there has been legislative proposals--one of 
which was discussed this morning by the larger committee--that 
have a very broad span of actions designed to increase 
knowledge upfront and better execute programs throughout.
    While there is widespread agreement on what needs to be 
done, you still need to make sure that there are larger changes 
in the planning, budgeting, and acquisition processes that sync 
up to these reforms that really establish priorities. You also 
need to ensure that there is accountability in this process, 
something that has been hard to do, to date. You do need, as 
Josh said, changes in the culture and mindset to accept these 
kinds of changes, even a different kind of architectural 
approach that focuses on small, more achievable, versus large, 
exotic, monolithic.
    I don't want to diminish the good things. Even with all 
these reform efforts, I really believe a focus needs to be 
really strong on just maintaining the capability we have and 
ensuring that we don't face capability gaps in some of those 
areas I mentioned.
    That concludes my statement. I am happy to take any 
questions you have.
    Ms. Tauscher. Thank you, Ms. Chaplain.
    [The prepared statement of Ms. Chaplain can be found in the 
Appendix on page 42.]
    Ms. Tauscher. Ms. Blakey.

  STATEMENT OF MARION C. BLAKEY, PRESIDENT AND CEO, AEROSPACE 
                     INDUSTRIES ASSOCIATION

    Ms. Blakey. Thank you.
    Good afternoon, Madam Chairman. I appreciate very much the 
chance to be here with you all this afternoon and to be able to 
speak before this distinguished panel. Ranking Member Turner, 
thank you very much for the opportunity.
    Before I go on, I would like to congratulate you, Madam 
Chairman, on your new nomination, too. Needless to say, we are 
very enthusiastic about the prospect of having you as our Under 
Secretary for Arms Control and Nonproliferation. So we look 
forward to having you in that role, as well.
    Ms. Tauscher. Thank you.
    Ms. Blakey. It would be hard to overstate the importance of 
our national space infrastructure. Security space 
infrastructure is absolutely vital to our country's overall 
high technology capability, and it supports virtually every 
aspect of our modern military and civilian way of life. The 
space industrial base also accounts for thousands of high-
quality, high-paying jobs; and this, of course, is critically 
important in today's economy.
    There are several challenges that we see as posing specific 
threats to the national security space industrial base. The 
first challenge is the shrinking aerospace workforce. America's 
scientists, engineers, and other technical workers are the core 
of our Nation's space industrial base. But we have real 
concerns that, as the current generation ages and retires, we 
are not renewing the workforce to keep America at the forefront 
of technology development.
    According to a survey that we did with Aviation Week--the 
aerospace industry has tackled this very issue, and we found 
that more than 60 percent of our aerospace workforce was age 45 
or older, and many are near or in fact at retirement age at 
this point.
    Indications show that there are not sufficient numbers of 
high school and college-age students studying science, 
technology, engineering, and mathematics (STEM) to replace the 
generation of workers that are about to retire. And the 
shortfall of experienced workers ages 35 to 40 calls into 
question the ability of our industry to meet the Defense 
Department needs.
    The second challenge is the defense acquisition process 
itself. Both government and industry have the goal of providing 
the best equipment possible, at the best value to taxpayers 
just like you and me. There is room for significant improvement 
in DOD's process, which is hampered at this point by size and 
complexity and instability in important areas like requirements 
and budgeting.
    The last challenge is our outdated export control system, 
which directly hampers the aerospace industry's ability to meet 
Defense Department needs, as you noted, Congressman Turner. The 
U.S. export control system has negatively affected the Nation's 
space industry, particularly the network of supplier companies 
that provide the components for our space programs.
    The United States used to dominate the global satellites 
export market until the rules changed about 11 years ago that 
put commercial satellites on the U.S. munitions list. As a 
result, our share of the export market dipped below 70 
percent--dipped from about 70 percent in 1995, to about 25 
percent in the year 2005. Those who know the details of the 
change, know that the intention behind this was good, but 
clearly the results have been disastrous and directly impact 
the industry's ability to provide the equipment our warfighters 
rely on.
    We have several recommendations to preserve the health of 
the national security space industrial base. First, the 
Administration should establish a national space management and 
coordination body that reports directly to the President. We 
believe they should have the authority to coordinate, across 
departments and agencies, all of our space efforts.
    Second, officials must support and invest in the science 
and education national priorities that we have detailed. This, 
of course, first and foremost, are the STEM initiatives to 
address this workforce challenge.
    Third, the DOD should implement management practices that 
promote requirement stability and accurate cost estimates, just 
as the other witnesses here today have noted, because this will 
ensure that programs can come out on time and on budget.
    As articulated by the Office of the Secretary of Defense 
Cost Analysis Improvement Group, the CAIG, I also will quote 
from their report: ``Stability starts with government's funding 
and plans, leads to an efficient and productive industry 
workforce, and results in well-performing programs that deliver 
mission area success.'' First and foremost, again, stability.
    Lastly, I would note that lawmakers and the Administration 
do have to take concrete steps to reevaluate the International 
Traffic in Arms Regulation (ITAR) controls on commercial 
satellite technologies. This is very important, and we believe 
it needs to be addressed at this point.
    So, in closing, it is absolutely vital that we continue to 
maintain and upgrade the national security space systems, 
adequately protect them, and ensure the healthy industry base 
that is going to be needed for their development.
    Thank you, again, for the opportunity to be here today.
    Ms. Tauscher. Thank you.
    [The prepared statement of Ms. Blakey can be found in the 
Appendix on page 64.]
    Ms. Tauscher. I am going to begin with questions.
    Mr. Hartman, in your testimony, you describe actions to 
empower program managers, create steering boards, provide 
technical support, increase competition, and practice 
principle-based acquisition. Yet, I am still not clear how the 
Department intends to establish stability in industry, and 
which programs offer procurement of a very small number of 
highly complex items.
    Specifically, with the cancellation of the Transformational 
Satellite (TSAT) program, what actions will the Department take 
to retain industry engineers and scientists involved in 
protected communications?
    The second, sub question: How would you recommend managing 
the missile warning business post-Space-Based Infrared System 
(SBIRS) to avoid another major disconnect in this business 
line?
    Mr. Hartman. Thank you for the questions.
    Protected Comm is a national asset. We will continue to 
have demands in this new environment that I mentioned that will 
force us to move most of our Comms, we believe, to protected 
assets.
    In the future, in light of the cancellation of TSAT, we 
will look at how to implement additional capabilities on 
Advanced EHF and the WGS--Wideband Global Positioning System--
and begin to look at, as I suggested, a layered approach to 
finding that additional capability from a protected and anti-
jam perspective.
    We are just in the midst of cleaning up all the pieces 
after the cancellation. There is lots of potential technology 
harvesting that should and will take place as a result of the 
nearly $3 billion we spent on TSAT that will become the 
foundation for the future plans for that augmentation to 
advanced EHF or additional free-flyer systems to produce that 
layered architecture I talked about.
    Ms. Tauscher. How do you make sure that the technology that 
is harvested actually has a human capital component to it that 
we don't lose?
    Mr. Hartman. We have been working with the two prime 
contractors and their subs to take a look at the next level 
down, primarily focused at their sub-vendors. In the space 
industry, the primes don't really have the core of the 
expertise to produce these systems. That strength comes from 
their subs. So we realize that the strength in that workforce-
protected Comm will result in investment in the sub-tier. So we 
will look at the right arrangement with industry to maintain 
that workforce level.
    Ms. Tauscher. I think the things that you described 
earlier, and that Ms. Chaplain talked about, too, when you have 
long lead on a lot of these systems, and it takes five, seven, 
longer to actually develop and put these things in orbit, you 
have got to understand that there has got to be something for 
people to do in the meantime. Whether we have a blended 
solution that includes a suite of acquisition--I think part of 
what we have to do is understanding that very few of these 
things are, in and of themselves, the totality of what we are 
looking for.
    So I think very much like they do in the computer 
business--they went from selling boxes to selling suites--
because you have to stretch out the capability of your 
workforce to continue to work while you are in development of 
new things.
    Perhaps what we have to do is to look at a suite of systems 
and make sure that when we are doing acquisitions, we are not 
buying onesies and twosies. We are buying enough to keep the 
capabilities fresh, to keep the workforce energized, and to 
have a very aggressive outreach to universities and colleges, 
and where we are really dipping down into high schools, 
frankly, and making it very clear that these are robust jobs, 
good-paying jobs that have a long life, and that you are not 
going to be out on the street every time somebody decides to 
either cut the funding or switch to something else.
    So I think that there is a combination. I know Mr. Turner 
and I talk about this offline quite often. I think that you 
could get a lot of bipartisan support in--both the industry and 
the Administration could get a lot of bipartisan support in 
taking that approach so that we weren't finding ourselves 
always trying to figure out how to patch things together when 
one situation doesn't meet our expectations.
    I am going to pause here. I have a number of other 
questions both for Ms. Chaplain and Ms. Blakey, but I am going 
to yield to the Ranking Member, Mr. Turner.
    Mr. Turner. Thank you, Madam Chairman.
    I have got one question about the CAIG's recommendation, 
and then I want to get to the trade issue.
    The CAIG is recommending a 20- to 30-year long-term program 
and resource plan for the national security space enterprise. 
What are your thoughts on such a plan?
    Mr. Hartman. I think in the current business model that 
something like that has to be done, because it takes us 10 
years to produce a system. So in order to develop that 
continuity that Congressman Turner talked about, you have to 
look that far in advance.
    But I would argue that that would be a difficult process. 
It will be a process that changes a great deal. And the reason 
why is in the space domain, the users are very unsophisticated 
at this point. They have a hard time articulating what it is 
they need 2 years from now, let alone 20 or 30 years from now. 
When you match that with the quickly evolving pace of 
technology, it is very difficult for me to put together an 
architecture and a capability plan 20 to 30 years from now. So 
that is why I think it is important for us to restructure the 
business model and allow us to be able to field systems in a 2- 
to 3-year period or 4 to 5, rather than this 10-year period we 
are currently on now.
    Mr. Turner. My biggest concern, in addition to the export 
controls in the industry, is the concept of innovation. It 
would seem to me that although you can tell if you have a 20- 
or 30-year plan what your current capability gaps would be, 
what you can currently do that you are going to lose, it would 
seem very difficult to project what needs you might have or 
what ingenuity that might arise, causing you to be interested 
in a new technology that you are not currently pursuing.
    That also goes into my concept of is this workforce, the 
fluctuations in demands--you are not going to be getting--the 
opportunity for ingenuity frequently happens on the shop floor 
when someone is tinkering with something, not when someone gets 
a contract with a spec requirement that someone did at their 
desk. That tinkering, that ability to work with what you are 
doing, gets suppressed when you have these spurts and then 
valleys.
    Mr. Hartman. Sir, I think a great way to describe what you 
just talked about is, in a model that forces us to look that 
far in advance, we are forced to use invention rather than 
innovation. Innovation, as you suggested, is taking today's 
capabilities, tinkering with them, to produce results in the 
near term, as opposed to producing a big-bang sort of invention 
that will satisfy our needs in a 20- to 30-year timeframe.
    Mr. Turner. Ms. Blakey, your thoughts.
    Ms. Blakey. I think we do need to pay attention to the 
opportunity, though, for both invention and innovation. And 
research and development (R&D) is at the heart of this, having 
enough funding and enough support for R&D and, frankly, a 
tolerance for failure. Because it does, at times, come down to 
that. Are we willing to take some risk to make leapfrog 
technologies happen?
    So all that, I think, is what the industry is very eager to 
offer, if we have the support to do it.
    Ms. Tauscher. Mr. Chairman, could I ask you a question? I 
think what Ms. Blakey just talked about, I think, is part of 
the nut of the problem. Part of the problem we have got is that 
so much of what we are doing is not R&D but actually trying to 
put things out. And if we could bifurcate, like the real world 
tries to; if we had a constancy of R&D, instead of trying to do 
R&D on a job, because you don't have funding for R&D. Instead, 
you have to wait to get the job, and then you do R&D and try to 
call that the job, but, in truth, you are still trying to 
spiral-up to get the capability.
    You and I have talked before about a constancy of R&D and a 
way to have that happen. Clearly, we have got a private sector 
that would like to spend more in R&D, but they don't get paid 
for that. I think we should try to talk together as to what 
ideas you all have.
    For me, what Ms. Blakey just said reminded me of the fact 
that, for a long time, we were forcing the private sector to 
effectively do their R&D on the job. Wait until they get the 
contract and then try to push ahead. A lot of this is on the 
move, and what we need to do is have much more of an invested, 
consistent, predictable R&D base. Then I think you actually 
pretty much know what you are going to get when you buy 
something. Because they have developed it, not just dreamed it 
up, and then you can control--considering the fact you can't 
control much--but you can control for some level what the cost 
and what the deliverable will be, instead of having a lot of 
this on a wish list called a contract.
    Mr. Turner. That would be great. Those are excellent 
points. You are close to advancing a product. You are advancing 
knowledge. That, then, can lead to products. That is excellent.
    Ms. Tauscher. Thank you.
    Mr. Turner. The export control issue is one that I am very 
interested in because, as you were describing, Ms. Blakey, you 
said that we had 70 percent and then went down to 25 percent in 
the market. Although we recognize, as you did in your comments, 
that there are some things we don't want to put out in general 
commerce or in the hands of just anyone, it would seem that 
since someone else is satisfying that market that someone else 
has the knowledge and capability and is selling knowledge and 
capability, so the end result is people have some technical 
capability and that we ought to be able to have an opportunity 
to commercially participate in that.
    We certainly have the review process when someone asks to 
export something. I wonder what you know of, when we do that 
assessment, what is lost. We are down to 25 percent. Is that 
gap one that we are prohibited in participating? In other 
words, I might have the best widget, and the export control 
says, ``You can't give them that.''
    Is the competition providing the equivalent, or are they 
providing something less? And who would be doing that? How do 
we know what is out there in the commercial area that we are 
losing as we try to address this issue of export controls?
    Ms. Blakey. Well, I continue to believe that U.S. industry 
can provide the finest technology out there. In terms of 
quality, unparalleled. So I genuinely believe that we still can 
be highly competitive in this arena, despite the downturn that 
the ITAR restrictions have caused for us.
    When you have companies out there worldwide, advertising 
that they have ITAR-free satellites that can be immediately 
contracted for, and those who are needing the service say, ``We 
would like to have the U.S. quality, but in fact the delays, 
the problematic nature, perhaps it won't happen,'' all those 
kinds of things really do put a tremendous drag behind our 
capability.
    And I would also go to your point earlier, Congressman 
Turner, and that is we are talking about the second and third 
tier of smaller, specialized providers, that those suppliers 
are really not in a position to go through all the hoops that 
ITAR often requires, and so they have to content themselves 
with supplying only to the U.S. Government. And that is a very 
thin support at times for those companies.
    Mr. Turner. Mr. Hartman, any comments on export controls?
    Mr. Hartman. I think--I won't go into great detail, but I 
think the current regime has been burdensome. I think it was 
developed at a time when it was to address specific needs at 
that time 11 years ago, as Ms. Blakey said. We exist in a new 
global environment, and I think the new regime needs to adjust 
to that new global environment to make our industry more 
competitive overseas and to allow the partnerships that I think 
we are going to need for the future to be able to bring the 
capability to the users of space systems.
    Mr. Turner. I think there was a time when the U.S. economy 
was viewed with such vastness we thought there were areas we 
could take hits in by being overly restrictive. Now, as we are 
in these economic times, it shows there are areas that we need 
to be competing in in order to thrive.
    But I do also think it goes back to the issue of ingenuity, 
that the more that we are doing, even in the commercial side, 
the more we are going to have. As our chairman was saying, that 
the concept of R&D can have an alternative source of funding, 
also, to support operations.
    Thank you.
    Ms. Tauscher. Thank you very much, Mr. Turner.
    We are now going to go to five-minute questioning. I want 
to thank all the members for coming. We have a large cadre of 
members here, and I appreciate that very much. We are going to 
go to Mr. Larsen for five minutes, the gentleman from 
Washington.
    Mr. Larsen. Thank you, Madam Chair.
    Ms. Blakey, I don't want to sound critical of the term 
``tolerance of risk,'' but this chart that Mr. Hartman had is 
why the tolerance may be at an all-time low for risk here in 
Congress and, as well, why we're looking at an acquisition 
reform bill in the full committee that Ms. Chaplain outlined. 
It is because of the cost increases, the budgets and schedules 
being far above what anyone planned. I think until we get past 
that--until we can get through acquisition reform, that the 
tolerance for risk might continue to be fairly low, which 
probably doesn't spell out a very good future in terms of the 
budgets that we have seen in the past, especially in the 
satellite programs we have overseen here on this committee over 
the last several years. It has been a point of frustration for 
a lot of us.
    I do want to, though, ask you a little bit more about the 
export-control issue. I think you are absolutely right-on with 
regards to the problems with ITAR and the ITAR-free 
advertising. But, as well, the point Mr. Hartman made about, 
perhaps 11 years ago, it might have been time for the 
particular export-control regime we have--let history judge 
that--but can you speak to this point: I have been over to 
China, the China Academy of Science and Technology, which is 
where their satellite showroom is located, basically. They will 
put you in a car for $5,000. The whole design of this place is 
to go around and show other countries who want to be involved 
in space activities, commercial or otherwise, to show folks 
what the Chinese can offer.
    In other words, the export-control regime certainly hasn't 
seemed to stop any other country from moving forward on 
satellite development, satellite launch, commercial or 
otherwise.
    And so, looking at this export-control regime, it seems to 
be something we want to do because it certainly hasn't achieved 
its objective. If we still come to the same conclusion that we 
want to have it the way it is, then let's do that 
intelligently, rather than blindly, which it what it seems we 
are doing now.
    Can you comment on that?
    Ms. Blakey. No, I think that is exactly right. I think that 
we all agree that for truly sensitive technologies--
technologies where we are maintaining our national security 
based upon very fine technologies that should not be allowed 
outside of our country or only in a very trusted community of 
allies--that is set aside, and that we should focus more on, in 
fact, being very careful on those.
    But in the commercial world where, just as you say, this is 
widely available and it really is a question of being 
competitive on the basis of quality, reliability, 
deliverability. We could and should compete there in a way that 
we are just not able to with the current, very outdated system 
and list. So that is what we are asking for Congress to take a 
good look at, because we do believe at this point, it is time.
    I should also probably be clear in my remarks earlier in 
talking about risk, because what I was going to was not on 
specific programs where there is a deliverable and you have got 
both cost and budget deadlines that must be met. We are 
actually proposing a number of reforms on the acquisition front 
because we believe it must be much more reliable and effective.
    But R&D, our country right now is underfunding, we are 
underinvesting, and, honestly, this Congress could address 
this. Because making the R&D tax credit permanent so that we in 
industry know what to count on, it may not seem that large, but 
without that stability, living year-to-year, hand-to-mouth on 
this, it is not the way you are going to get the kind of robust 
investments, whether it is industry or government funding, that 
is at issue there. And the industry would like to step up more.
    Mr. Larsen. Mr. Hartman, would you say that the CAIG 
recommendations would be consistent, or nearly consistent, or 
not at all consistent with what Secretary Gates has said about 
trying to get to a 75 percent solution rather than a 99 percent 
solution?
    Mr. Hartman. I wouldn't want to speak for the CAIG. We have 
Steve here to talk about that, if necessary.
    But I think, in talking to Steve, my assessment of what the 
CAIG's recommendation is is completely in line with where the 
SECDEF is. The SECDEF has talked about the need for ``good 
enough.'' He didn't specifically mention space systems. But it 
is very applicable to space systems, and it goes in line with 
the business model that I was suggesting.
    And, in the context of requirements management and 
expectation management, we ought to spend more time working 
with the users to explain to them really what a space system 
can do for them and the timeline associated with being able to 
produce this capability; letting them know that in three years 
we can give them this good enough capability and continue to 
shoot in the next evolution toward what their end desires are.
    Mr. Larsen. I just want to conclude by saying sometimes ho-
hum works better than whiz-bang, which sometimes never works.
    Mr. Hartman. Absolutely.
    Ms. Tauscher. Let me give members and our witnesses the 
state of play. We are about to be called in about 15 to 30 
minutes for an hour of votes. Today is Thursday. This is ``get 
out of town day,'' as we call it. So I want to give members a 
chance to at least ask a question, and then if we still have 
time before the votes are called, we will go through it again.
    We have got four members with five minutes each. If members 
have more lengthy questions that are more substantive, if you 
want to submit a question for the record, please feel free to 
do that. Those members who have already asked questions are 
free to do that, too.
    I want to turn to Mr. Franks of Arizona for five minutes.
    Mr. Franks. Thank you, Madam Chair. I will try to not abuse 
the time here at all.
    I appreciate all of you for being here. I think we all do. 
It is a critically important subject, and it is reflected in 
some of your testimony. Of course, the United States can't 
afford to do without the national security space system. It is 
not only critical to gathering information related to 
terrorists and unfriendly nations' weapons programs, our 
military leaders would be completely blind without what all of 
you do. I certainly thank you. I know the whole committee does.
    Mr. Hartman, I know that a lot of this has been covered, 
but acquisition in the Department of Defense is obviously a 
notoriously kind of slow and inefficient and costly process. 
Sort of a bureaucratic challenge. It is not to demean the 
Department. It is just a complicated job. And that reputation 
is especially true related to space acquisitions.
    Sometimes Congress tends to think that the solutions come 
in the form of greater oversight, creating more offices and 
programs. Is there anything that you think that we can do away 
with or add, notwithstanding Ms. Blakey's suggestion, to make 
the circumstances better? What do you think is currently being 
done that would resolve the bureaucratic condition of the space 
acquisition program?
    Mr. Hartman. Sir, I think I would recommend three things 
that Congress could focus on. First is helping the executive 
branch toward consolidating and establishing strong leadership 
in the space and intelligence community. That would clarify a 
lot of the problems. It would focus us in on the requirements 
and investment issues that we continue to have in the debates.
    The second thing I would do is look at finding ways to 
encourage the Department to fully fund programs through the 
entire--through five years of our planning cycle. Our resource 
team tends to focus on the year of execution, which is the most 
important year. It is the year that we bring the budget over to 
you. The problem is that, in a planning perspective, many of 
these programs are often broken in the outyears, and we find 
ourselves in what I call the ``Wimpy Syndrome,'' for those of 
you who are familiar with Popeye: I will gladly pay you Tuesday 
for a hamburger today.
    The suggestion is they will fix the funding disconnects 
during the next budget cycle. And it is not a sound way for a 
program manager to be able to expect his funding to come 
through. That stability needs to be able to exist through that 
planning process.
    The third thing I would do is--and I think, Mr. Turner, you 
touched on this a little bit and, Ms. Blakey, you talked about 
the importance of R&D. Investment in invention ought to happen 
in the science and technology world. We ought to reinvigorate 
the lab system and build that linkage between the S&T community 
where invention ought to happen so that we can then innovate 
inside the program offices.
    Ma'am, you mentioned the same thing. We should no longer be 
trying to work technical miracles within the program office. We 
should be doing those things before the program ever comes. And 
one of the key ways to do that is something that the committee 
did back in their authorization act in 2006, which was to 
direct the executive branch to develop the science and 
technology plan. It happened, and then it stopped happening. 
And that needs to be a continual thing.
    It is focused on space. There is a larger science and 
technology plan, but one for space needs to also happen. And it 
needs to have the buy-in of not just the science and technology 
community, but the acquisition community. It ought to be 
connected to each other.
    So those are the things that I would suggest that Congress 
would be the most help on.
    Mr. Franks. The Operationally Responsive Space (ORS) 
initiative has, as you know, enjoyed some pretty significant 
bipartisan support. What do you think--how can it help mitigate 
the risks of capability gaps, whether it is positioning or 
navigation or timing or missile warning or communications even 
of weather? How can we use that to help mitigate these 
capability gaps?
    Mr. Hartman. Sir, I think the way that you pose the 
question is a great way to look at it. ORS is not a blanket 
solution for all of our capabilities. There are certain ways 
that ORS can play in individual mission spaces; weather, for 
example. There are some commercial opportunities out there that 
will allow us to buy data to satisfy--or to keep requirements 
away from the end-post program or future weather satellite 
systems. We ought to find a way to integrate that into--that is 
the Tier-1 ORS solution.
    They are looking at that same model for radar right now. 
And we are, in the U.S., behind our international competitors 
when it comes to a Tier-2 radar, meaning not the exquisite 
stuff. We are, because of the industrial base--lack of 
industrial base investment in the R&D side and on the 
operational side by the U.S. Government, forced to look for 
international partners for satisfaction of mission capability 
within that realm, bring in another Tier-1 capability.
    But, as I talked about earlier in that business model, the 
architectures we ought to employ ought to be layered. They 
ought to be focused on geographic areas. They ought to use 
optimized orbits, niche capabilities. ORS would play a great 
role in providing that top layer. It is not going to satisfy 
all of the mission requirements. It is going to satisfy those 
specific mission requirements for that specific joint forces 
commander. And I think you can do that in all of the mission 
areas. Positioning, Navigation, and Timing (PNT) is one that 
you mentioned. But imagery, whether it be radar or electro-
optical can be one, or IR. I think that the opportunities are 
boundless when it comes to looking at the ORS applications from 
that perspective.
    Mr. Franks. Thank you all again; and thank you, Madam 
Chair.
    Ms. Tauscher. Thank you, Mr. Franks.
    Mr. Langevin of Rhode Island for five minutes.
    Mr. Langevin. Thank you, Madam Chair.
    I want to thank the panel for what has been a very fruitful 
discussion.
    A lot of the issues that I have had concerns about have 
already been asked or the panel addressed them. I appreciate, 
Ms. Blakey, you addressing the issue of lack of support, 
investment in the STEM programs, encouraging our young people 
to go into those programs. I share that concern as well, and 
have pursued a number of opportunities where we can provide 
more support in those areas, especially the younger ages.
    We have got to encourage more of our students to go in 
there. It really is a national security issue at this point. We 
are losing our edge in the area of math and science, 
engineering and such. So we obviously have to do more in that 
area.
    I share the concern, also, about the issue of export 
controls. We have our foreign partners or competitors putting 
out satellite capabilities that are pretty robust, and our 
industry is prohibited from exporting our technology. I 
understand clearly we have got to be concerned about our 
national security and not letting our best R&D technologies out 
that could be used against us. It would be a disadvantage. But 
the commercial sectors in other countries have developed these 
capabilities and are available to foreign competitors. I think 
we need to really look at our export controls in wondering is 
it--it is clear we need time to revise those export controls. 
And, obviously that has important implications for our 
industrial base as well.
    I also agree with the issue of--you know, one of the 
problems in rising costs and acquisition, we need acquisition 
reform on the issue of R&D on the fly. Sometimes this issue of 
doing too much, too soon just doesn't work.
    And another thing, in addition to doing R&D on the fly as 
we go, is these changes in mission requirements as we go, 
trying to--you know, you start out with one set of requirements 
and then you do the add-ons, which are an increasing problem.
    The other thing that maybe you can comment on is the issue 
of focusing more in developing a common bus so that as 
technology upgrades are achieved that it can be achieved more 
cost effectively. It is easier to do it and upgrade.
    Do you want to----
    Mr. Hartman. Yes, sir. I think that is an important 
initiative for the future. The reality is that there are--there 
has been common buses. Our current primes have common buses. 
But there are several different kinds of common buses.
    What we are looking at doing--and this is primarily done 
through the Air Force research lab in the ORS office--is 
developing common standards across the industrial base that 
will allow us to plug and play and, as we talked about earlier, 
focus the investment and innovation and competition on that 
sensor and payload level, as opposed to the bus level.
    Mr. Langevin. Let me ask you this: Secretary Gates has 
recently announced the decision to cut the Transformational 
Satellite program instead approaches two more bands Extremely 
High Frequency satellites as alternatives. What will this mean 
for our communications satellite industrial base, and how will 
this affect other major satellite acquisition programs? And 
will the fiscal year 2010 budget reflect a commitment to 
prioritizing space acquisition programs?
    Mr. Hartman. Sir, I think the cancellation of TSAT and the 
investment of the Advanced EHF satellites, as you noted, will--
what it will mean is the first step in what we have talked 
about here today, is evolving systems and not putting too much 
risk on an individual system. We will have to resist the 
pressures from ourselves to try to pile too much investment 
into advanced capabilities within both the WGS and the Advanced 
EHF systems. So I think that if we do this properly, it will be 
as I suggested, that first step moving in this direction.
    With respect to the priority of space systems, I don't know 
what the total amount is for investment, but I think it will 
largely remain static. It will be a decrease from last year's 
investment in overall dollars associated with the space 
industrial base sector.
    Ms. Tauscher. Thank you.
    Mr. Langevin.
    Mr. Langevin. I yield back.
    Ms. Tauscher. Thank you.
    When a plan comes together--we are called for five votes, 
and we have Mr. Thornberry of Texas for five minutes.
    Mr. Thornberry. Thank you, Madam Chair.
    I appreciate you all's testimony. Particularly, Ms. 
Chaplain, Mr. Hartman, you all seem to agree on everything. And 
I have been in lots of hearings over the past several years 
where there is lots of agreement on the problem. You all are in 
agreement on where we ought to go, but it seems to me the 
problem is getting from here to there.
    You both mentioned things like culture and so forth. It is 
hard for us to pass a law to fix culture, I have found out. And 
I have tried to listen carefully to all of your suggestions: 
fully funding R&D, putting all the money in the fight-up for a 
program, and so forth.
    But it seems to me that in a number of cases, we find 
ourselves just trying to fill a hole or plug a gap or meet an 
immediate need; and, therefore, that R&D money is the easiest 
money to squeeze. It is nice to think about going to a real 
common bus or so forth, but we just have to--it takes all we 
can do just to do what absolutely has to be done, what the 
warfighter has grown dependent on, for example. So do you have 
any other--I don't mean other suggestions, but do you have any 
more guidance for us on how to get from here to there?
    Mr. Hartman, you work in a big building. Not everybody 
would agree with all of the things that you have laid out, 
although it sounds perfectly reasonable to me. But either of 
you, how do we get from here to there and over that hurdle that 
seems to stop us?
    Mr. Hartman. You are right. It is a very big building. And 
that is exactly the trouble that we will experience in 
implementing something like this. The role for Congress is to 
keep this issue front and center and to speak about how 
important this is. It will force that attention that will be 
required to make these changes.
    But the problem that we are going to have, frankly, is 
that, under what I would expect to be static defense budgets 
over the future, there will be little room for new capital 
investment inside the space community. So the progress that we 
will be able to make will be similar to my response to 
Congressman Langevin's question. We will have to, because of 
survival, evolve our system. What we will have to do is save 
ourselves from each other, and that is to resist piling 
additional capability on these systems.
    This change is going to have to take place over several 
years. It is going to be much like we are talking about, 
evolving our systems. It is going to be an evolutionary 
process, and that first step is to force us to take what we 
have, stretch it out and slowly push it into the future.
    Ms. Chaplain. I would comment that the condition today has 
not always been the case, and there was a time when we did get 
a lot accomplished. There was cost growth, but not to the 
extent that you saw today. And there was a lot of reasons why 
that occurred.
    I think we kind of need to go back to that time to the 
extent possible. That means things like reducing complexity in 
the requirements process, making it simple, maybe reducing 
players involved in the acquisition process or, at least, 
making them accountable for the role that they do play.
    There has also been talk about a national security space 
strategy in recent years, and that is very big because that 
does not exist right now in the way it should be. And there you 
can really lay out where are we going to go for space, not just 
for DOD but for the Intelligence Community for now. So, where 
are we going to go and why? What is the priority? How are we 
going to get there? And then you can even lay out the thrust 
areas that you want for S&T and pocket places for the 
inventions.
    This is things that we need to make room for, the next GPS 
that we don't think we are going to have today. But I really 
believe we can get there. It is not hopeless, because we were 
there at one time. And maybe it is just time to go back and 
look at what made things work back then and try to get back 
there. There is a lot of people I know in that community who 
were there back then who would love to get back there today.
    Mr. Thornberry. Thank you.
    Ms. Tauscher. Thank you, Mr. Thornberry.
    I want to thank our witnesses for their testimony, for 
their hard work and the people behind them that have worked 
hard with them. Thank you for your patriotism. Thank you for 
being here with us.
    We obviously have a number of challenges coming forward. 
Certainly I have heard from my colleagues, ITAR and this whole 
question of R&D and how we get a better commitment to have 
deliverables that come on time and on budget and that are part 
of a suite of systems that maintain our industrial base.
    So I think this was a very, very good hearing. I am sorry 
the votes have come in the middle of it, but I think we have 
done a good job of making sure that these issues are out in 
front of us.
    So, once again, I thank you for your support and your 
testimony; and the hearing is adjourned.
    [Whereupon, at 2:20 p.m., the subcommittee was adjourned.]

=======================================================================




                            A P P E N D I X

                             April 30, 2009

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 30, 2009

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

                                  <all>

</pre></body></html>
